                                Report In Brief
                                       U.S. Department of Commerce, Office of Inspector General
                                                            January 2010

Why We Did This Review National Oceanic and Atmospheric Administration (NOAA)
The Federal Information
Security Management Act of
2002 (FISMA) requires federal     FY 2009 FISMA Assessment of the Environmental
agencies to identify and provide Satellite Processing Center (ESPC) (OAE-19730)
security protection of
information collected or         What We Found
maintained by them or on their
behalf. Inspectors general are
required to annually evaluate    Our objectives for this review were to determine whether (1) implemented
agencies’ information security controls adequately protected the system and its information, (2) continuous
programs and practices. Such     monitoring is keeping the authorizing official sufficiently informed about the
evaluations must include testing operational status and effectiveness of security controls, and (3) the certification
of a representative subset of    and accreditation (C&A) process produced sufficient information about remain-
systems and an assessment,       ing system vulnerabilities to enable the authorizing official to make a credible,
based on that testing, of the    risk-based accreditation decision.
entity’s compliance with
FISMA and applicable require- We found that the National Environmental Satellite, Data, and Information
ments.                           Service has not followed the required process for C&A of ESPC. The lack of
                                     proper security planning undermined the effectiveness of the system’s security
This review covers our               certification, hindering the authorizing official in making a credible risk-based
evaluation of NOAA’s ESPC,           accreditation decision. The system’s plan of action and milestones for remediat-
which is one of a sample of sys-     ing vulnerabilities is ineffective.
tems we assessed in FY 2009.

Background
ESPC is NOAA’s primary pro-
cessing system for the nation’s
environmental satellite data.     What We Recommend
ESPC ingests, processes, distrib-
utes, and archives data from two
environmental and meteorologi-
                                  We recommend that NOAA complete            security planning activities, conduct
cal satellite systems.
                                     appropriate security control assessments, and address system deficiencies.
                                     Until these activities have been completed, NOAA should revise the system’s
C&A is a process by which
                                     accreditation status to an interim authorization to operate.
security controls for IT sys-
tems are assessed to determine
                                     In its response to our draft report, NOAA disputed our findings and concurred
their overall effectiveness.
                                     with only two of our recommendations. NOAA does agree that ESPC’s
Understanding the remaining
                                     security posture must improve. We have asked NOAA to reconsider its
vulnerabilities identified during
                                     response based on our comments in this report and craft its action plan, due in
the assessment is essential in
                                     60 days, accordingly.
determining the risk resulting
from the use of the system to the
organizations’s operations and
assets, to individuals, to other
organizations, and to the nation.
Continuous monitoring is a
critical post-accreditation aspect
of this process.
